TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Additional Improvements Are Needed
                       in the Office of Appeals Collection
                         Due Process Program to Ensure
                        Statutory Requirements Are Met



                                         August 15, 2011

                              Reference Number 2011-10-062




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


ADDITIONAL IMPROVEMENTS ARE                          not always grant taxpayers the correct type of
NEEDED IN THE OFFICE OF APPEALS                      hearing. TIGTA determined that four cases
COLLECTION DUE PROCESS PROGRAM                       were misclassified, which is an increase from
TO ENSURE STATUTORY                                  our prior audit. TIGTA also found significantly
                                                     more errors related to the CSEDs on taxpayer
REQUIREMENTS ARE MET
                                                     accounts than during prior audits. Specifically,
                                                     15 cases from our sample of 70 Collection Due
Highlights                                           Process cases had incorrect CSEDs, a
                                                     50-percent increase from the prior review which
                                                     had identified 10 cases with incorrect CSEDs.
Final Report issued on August 15, 2011               TIGTA found that Appeals properly ensured that
                                                     nearly all Determination and Decision Letters
Highlights of Reference Number: 2011-10-062          issued to taxpayers documented their
to the Internal Revenue Service Chief of             impartiality in the case and verified that
Appeals.                                             applicable laws and administrative procedures
IMPACT ON TAXPAYERS                                  were followed, as required by statute. However,
                                                     Appeals personnel are still not always recording
The Collection Due Process Program was               these issues in their case files as required by
designed to allow taxpayers a process for            Appeals’ procedures.
exercising their right to appeal when the Internal
Revenue Service (IRS) files a lien or a Notice of    WHAT TIGTA RECOMMENDED
Intent to Levy for unpaid taxes. TIGTA identified    TIGTA recommended that the Chief, Appeals,
areas in which Appeals can improve its               correct the inaccurate CSEDs identified in the
processing of Collection Due Process cases.          audit and develop a job aid for processing
Appeals did not always classify taxpayer             employees to assist in more accurately
requests properly, which affects the taxpayer’s      determining the correct CSEDs. TIGTA also
right to petition the United States Tax Court and    recommended the Chief, Appeals, determine
the time allowed for the IRS to collect any          whether the impartiality statement generated by
balances owed. On some taxpayer accounts,            the systemic prompt should be reevaluated so
TIGTA found errors with the Collection Statute       that it cannot be overwritten and evaluate what
Expiration Dates (CSED), which can potentially       documentation should be maintained in the
violate taxpayer rights. Further, hearing officers   Case Activity Records to support the hearing
did not always document their case files with all    officer’s conclusions that the IRS followed
required information, increasing the risk that the   applicable laws and procedures.
IRS had not met all the requirements of
applicable laws or administrative procedures         Appeals management agreed with all of our
with respect to the proposed levy or lien.           recommendations. Appeals agreed to: 1) verify
                                                     that the inaccurate CSEDs identified in this
WHY TIGTA DID THE AUDIT                              review are corrected, 2) revise the Internal
This audit was initiated because TIGTA is            Revenue Manual to incorporate a job aid to
statutorily required to determine whether the IRS    assist processing employees with determining
complied with the provisions of 26 United States     correct CSEDs, 3) request a computer
Code Sections 6320 (b) and (c) and 6330 (b)          enhancement that would result in a “read only”
and (c) when taxpayers exercised their right to      case activity record affirming each hearing
appeal the filing of a Notice of Federal Tax Lien    officer’s impartiality, and 4) remove the
or the issuance of a Notice of Intent to Levy.       requirement to document the verification of the
                                                     legal and administrative procedures in the case
WHAT TIGTA FOUND                                     activity record.
In this review, TIGTA identified areas in which
Appeals can improve its processing of Collection
Due Process cases. Specifically, Appeals did
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 15, 2011


 MEMORANDUM FOR CHIEF, APPEALS

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Additional Improvements Are Needed in the
                             Office of Appeals Collection Due Process Program to Ensure Statutory
                             Requirements Are Met (Audit # 201110008)

 This report presents the results of our review of the statutory review of Appeals’ Collection Due
 Process Program. The overall objective of this review was to determine whether the Internal
 Revenue Service (IRS) complied with 26 United States Code Sections 6320 (b) and (c) and
 6330 (b) and (c) when taxpayers exercised their right to appeal the filing of a Notice of Federal
 Tax Lien or issuance of a Notice of Intent to Levy. This audit is included of our Fiscal Year
 2011 Annual Audit Plan and addresses the major management challenge of Taxpayer Protection
 and Rights.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                                    Additional Improvements Are Needed in the
                                 Office of Appeals Collection Due Process Program
                                     to Ensure Statutory Requirements Are Met




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Taxpayers Did Not Always Receive the Appropriate
          Type of Hearing ............................................................................................ Page 3
                    Recommendation 1:.......................................................... Page 4

          The Collection Statute Expiration Date Was Not
          Always Correct ............................................................................................. Page 5
                    Recommendations 2 and 3: ................................................ Page 6

          Hearing Officers Did Not Always Document
          Their Impartiality .......................................................................................... Page 6
                    Recommendation 4:.......................................................... Page 8

          Hearing Officers Did Not Always Document Verification
          That All Applicable Laws and Administrative Procedures
          Were Followed .............................................................................................. Page 8
                    Recommendation 5:.......................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measures............................................................... Page 15
          Appendix V – Collection Due Process Procedures....................................... Page 19
          Appendix VI – Management’s Response to the Draft Report ...................... Page 21
            Additional Improvements Are Needed in the
         Office of Appeals Collection Due Process Program
             to Ensure Statutory Requirements Are Met




                  Abbreviations

ACDS        Appeals Centralized Database System
CDP         Collection Due Process
CSED        Collection Statute Expiration Date
EH          Equivalent Hearing
FY          Fiscal Year
IRM         Internal Revenue Manual
IRS         Internal Revenue Service
U.S.C.      United States Code
                                Additional Improvements Are Needed in the
                             Office of Appeals Collection Due Process Program
                                 to Ensure Statutory Requirements Are Met




                                             Background

When initial contacts by the Internal Revenue Service (IRS) do not result in the successful
collection of unpaid tax, the IRS has the authority to attach a claim, a Notice of Federal Tax Lien
(lien), to a taxpayer’s assets.1 The IRS also has the authority to seize or levy a taxpayer’s
property, such as wages or bank accounts, to satisfy a taxpayer’s debt.2
In January 1996, Congress modified collection activity provisions that allowed taxpayers to
appeal the filing of a lien and proposed or actual levies.3 Further, Congress enacted legislation to
protect taxpayers’ rights in the IRS Restructuring and Reform Act of 1998,4 which gave
taxpayers the right to a hearing with the Office of Appeals under the Collection Due Process
(CDP)5 provisions. The Office of Appeals (Appeals) is independent of other IRS offices, and its
mission is to resolve tax controversies, without litigation, on a basis that is fair and impartial to
both the Federal Government and the taxpayer.
When a taxpayer timely requests an Appeals hearing regarding the filing of a lien or the issuance
of a Notice of Intent to Levy, the taxpayer is granted a CDP hearing. However, if the taxpayer’s
request for a CDP hearing is not received within the allotted time period, usually within
30 calendar days, the taxpayer, at the discretion of Appeals, might be granted an Equivalent
Hearing (EH).
When Appeals makes a final decision on a taxpayer’s case, the hearing officer issues a
Determination Letter on CDP cases or a Decision Letter on EH cases. During Fiscal Year
(FY) 2010, Appeals closed 37,289 CDP cases and 9,653 EH cases. Taxpayers have the right to
petition the United States Tax Court if they disagree with Appeals’ decision on a CDP hearing
but cannot petition an EH decision.6
The Treasury Inspector General for Tax Administration is required to determine annually
whether the IRS complied with legal guidelines and procedures for the filing of a lien or a Notice



1
  26 United States Code (U.S.C.) Section (§) 6321 (Supp. III 2000).
2
  26 U.S.C. § 6331 (Supp. III 2000).
3
  Taxpayer Bill of Rights 2 (Pub. L. 104-168, 110 Stat. 1452 (1996) (codified as amended in scattered sections of
26 U.S.C.).
4
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
5
  See Appendix V for an explanation of the CDP and Equivalent Hearing procedures.
6
  CDP hearings allow taxpayers the right to petition the United States Tax Court if they disagree with Appeals’ final
determination or decision. Additionally, the IRS usually stops collection activity during the Appeals CDP hearing
by suspending the Collection Statue Expiration Date.
                                                                                                             Page 1
                              Additional Improvements Are Needed in the
                           Office of Appeals Collection Due Process Program
                               to Ensure Statutory Requirements Are Met



of Intent to Levy and the right of the taxpayer to appeal.7 This is our eleventh annual audit of
taxpayer appeal rights.
In previous audits, we had concerns that relevant information was not always retained in the case
files, which made it difficult to evaluate whether the CDP requirements were met.8 In this audit,
we confirmed that Appeals developed and initiated additional procedures in December 2009 to
better ensure that proper records are retained in its case files. Because many of the cases in our
samples were opened before Appeals implemented this change, we plan to evaluate this during
future audits.
The scope for this year’s audit covered CDP and EH cases closed between October 1, 2009, and
September 30, 2010. This review was performed by contacting Appeals personnel in
San Francisco, California; Denver, Colorado; and Syracuse, New York, during the period
November 2010 through May 2011. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




7
 26 U.S.C. §§ 7803(d)(1)(A)(iii) and (iv) (Supp. III 2000).
8
 The Office of Appeals Continues to Improve Compliance With Collection Due Process Requirements (Reference
Number 2009-10-126, dated September 17, 2009), and The Office of Appeals Has Improved Compliance Within Its
Collection Due Process Program; However, Some Improvement Is Still Needed (Reference Number 2010-10-075,
dated July 15, 2010).
                                                                                                     Page 2
                                Additional Improvements Are Needed in the
                             Office of Appeals Collection Due Process Program
                                 to Ensure Statutory Requirements Are Met




                                       Results of Review

We identified areas in which Appeals can improve its processing of CDP cases. Specifically,
Appeals did not always grant taxpayers the correct type of hearing. It is important that Appeals
accurately determine whether the taxpayer receives a CDP hearing or an EH because it affects
the taxpayer’s right to petition the United States Tax Court and the time allowed for the IRS to
collect any balances owed. During this review, we determined four cases were misclassified, an
increase from our prior audit which identified *****1*****.
We also found significantly more errors related to the Collection Statute Expiration Dates
(CSED)9 on taxpayer accounts than during prior audits. In this review, we identified 15 cases
from our sample of 70 CDP cases with incorrect CSEDs, a 50-percent increase from the prior
review which identified 10 cases with incorrect CSEDs. When CSED dates are extended in
error, the IRS is provided additional time to collect any balances owed by these taxpayers, which
is a potential violation of taxpayer rights. Conversely, when CSEDs are incorrectly shortened,
the IRS has less time to collect delinquent taxes, which could cause the IRS a potential loss of
revenue.
Overall, we found that Appeals properly ensured that nearly all Determination and Decision
Letters issued to taxpayers documented their impartiality in the case and verified that applicable
laws and administrative procedures were followed, as required by statute.10 However, Appeals
personnel are still not always recording these issues in their case files, as required by the
Appeals’ Internal Revenue Manual (IRM). For example, hearing officers did not always
document their impartiality or the legal verification statement in the Case Activity Records.11

Taxpayers Did Not Always Receive the Appropriate Type of Hearing
When taxpayers request an Appeals hearing regarding the filing of a lien or the issuance of a
Notice of Intent to Levy, the taxpayer may receive a CDP hearing or an EH. If granted a CDP
hearing by Appeals, the taxpayer has the right to seek judicial review of the final determination
and the collection activity is suspended during the hearing. If an EH is granted, the taxpayer
cannot petition the United States Tax Court if he or she disagrees with Appeals’ decision. In
addition, the collection activity is not suspended during an EH.


9
  The CSED is the date the statute expires for collection of tax, penalty, or interest. The CSED is 10 years from the
assessment date of the posting of the original return.
10
   26 U.S.C. §§ 6320 and 6330 (2010).
11
   The Case Activity Record is a subsystem of the Appeals Centralized Database System that allows the hearing
officer to electronically record his or her actions taken during the course of the hearing with the taxpayer.
                                                                                                              Page 3
                              Additional Improvements Are Needed in the
                           Office of Appeals Collection Due Process Program
                               to Ensure Statutory Requirements Are Met



To receive a CDP hearing, the taxpayer must timely submit a written request for a levy hearing
within a specified 30-day period. For a CDP lien hearing, the written request must be submitted
on or before the “must file by” date on the IRS Notice of Federal Tax Lien. To receive an EH,
taxpayers must generally submit a request in writing and file this request within a 1-year period
following notification by the IRS of the lien or levy.
For this review, we identified four cases ********1*********** where the taxpayer did
not receive the appropriate type of hearing. This is an increase from our prior review which
identified only ************1***************************.12
*****************************************1*********************************
****************************************************************************
*****************************************************************************
*****************************************************************************
*********************
*****************************************1**********************************
*****************************************************************************
*****************************************************************************
****************************************************************************
****************************************************************************

Appeals management agreed with our analysis and indicated that the errors were due to incorrect
judgment on the part of the case hearing officers. Appeals also indicated that they would make
the appropriate corrections to the CSED on these taxpayers’ accounts. Based on the errors we
identified, we estimated that a total of 533 taxpayer cases may have received a CDP hearing
during FY 2010 instead of an EH as required, 276 taxpayer cases may have received an EH
hearing during FY 2010 instead of a CDP as required, and 138 taxpayer cases may have been
incorrectly granted an EH hearing even though the request was made more than 1 year after the
notice.

Recommendation
Recommendation 1: The Chief, Appeals, should ensure the CSEDs are corrected for the
taxpayer accounts that we identified as misclassified.
        Management’s Response: Management agreed with this recommendation and stated
        they plan to verify that the inaccurate CSEDs identified in this review are corrected.



12
  The Office of Appeals Has Improved Compliance Within Its Collection Due Process Program; However, Some
Improvement Is Still Needed (Reference Number 2010-10-075, dated July 15, 2010).
                                                                                                    Page 4
                               Additional Improvements Are Needed in the
                            Office of Appeals Collection Due Process Program
                                to Ensure Statutory Requirements Are Met



The Collection Statute Expiration Date Was Not Always Correct
The IRS generally has 10 years from the date of assessment to collect a liability owed by a
taxpayer. The final date to collect is referred to as the CSED. Because the IRS usually stops
collection activity during the Appeals process, the CSED is temporarily suspended during a CDP
hearing. The IRS suspends the 10-year statute of limitations from the date of the CDP hearing
request until the date the Appeals determination is made final or the date the IRS receives the
taxpayer’s request to withdraw.
The statute suspension is systemically controlled on the Integrated Data Retrieval System.13 One
code is entered to start the suspension and another is entered to stop the suspension and restart
the statute period. Upon completion of each CDP hearing, Appeals is responsible for entering
the code to remove the suspension of the statute period. The Integrated Data Retrieval System
will systemically recalculate the CSED based on the dates entered for the two codes (which
reflect the length of the Appeals hearing plus expiration of the time period for seeking judicial
review or the exhaustion of any rights to appeal following judicial review).
However, in 15 (21 percent) of the 70 CDP cases sampled, the CSEDs were inaccurate. We
identified that these taxpayer accounts had inaccurate CSEDs that ranged between 1 and
285 days from the correct CSEDs. The IRS input an incorrect date in nine of the CDP cases,
which allowed the IRS additional time to collect the delinquent taxes. When the IRS suspends
the collection statute for a period longer than its policy allows, it potentially violates taxpayer
rights.
In the remaining six CDP cases, the IRS incorrectly adjusted the collection time to decrease the
time the IRS would have had to collect the delinquent taxes. The dates calculated by IRS
employees as the suspension start date were incorrect. Similarly, the code needed to designate
the end of the collection statute suspension was not input or the suspension end date was
incorrect. As a result, the IRS has less time to collect delinquent taxes, which could cause the
IRS a potential loss of revenue. We estimate 7,990 of the 37,289 CDP cases closed in FY 2010
had an incorrect CSED (3,196 taxpayers had their collection time shortened, and 4,794 taxpayers
had their time extended in error).
Appeals management informed us that due to the different hearing request circumstances and the
variation in the IRM rules, Appeals processing employees inputting the suspension codes
sometimes have difficulty identifying the correct dates for CSED suspension. Appeals
management also informed us that a job aid CSED summary sheet is under consideration to help
processing employees to more accurately assess the CSED suspension circumstances and input
the correct dates of suspension.


13
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                          Page 5
                               Additional Improvements Are Needed in the
                            Office of Appeals Collection Due Process Program
                                to Ensure Statutory Requirements Are Met



Collection dates in taxpayer records need to be monitored regularly and when errors are
identified, they should be corrected immediately. Failing to correct this vital part of the
taxpayer’s record will continue to affect taxpayer rights and potentially result in lost revenue to
the IRS.
Recommendations
Recommendation 2: The Chief, Appeals, should ensure a job aid for processing employees is
developed to more accurately determine the correct suspension dates.
        Management’s Response: Management agreed with this recommendation and stated
        that they plan to revise the Internal Revenue Manual to incorporate a job aid to assist
        processing employees with determining correct CSEDs.
Recommendation 3: The Chief, Appeals, should review and correct the taxpayer accounts
with CSED errors that we identified.
        Management’s Response: Management agreed with this recommendation and stated
        they plan to verify that the inaccurate CSEDs identified in this review are corrected.

Hearing Officers Did Not Always Document Their Impartiality
The law requires that a CDP hearing be conducted by an impartial hearing officer who has had
no prior involvement with the unpaid tax.14 In addition, the Appeals IRM extends this
requirement to all hearing officers, including those working EHs. The IRM specifies that each
hearing officer must document “no prior involvement” in the Case Activity Record during the
initial analysis of the taxpayer’s appeal. Hearing officers are also required to document their
impartiality in the letters issued to taxpayers at the conclusion of the appeal. However, a lack of
this statement does not mean that hearing officers were not impartial or that taxpayers received
an unfair hearing.
In this review, we found that all of the CDP Determination Letters issued to taxpayers at the end
of the appeals hearing contained the impartiality statement.15 However, we identified nine cases
(three CDP and six EH) without an impartiality statement in the Case Activity Record or the EH
Decision Letters.16 Figure 1 shows the impartiality errors in our samples of CDP and EH cases.




14
   Per U.S.C. §§ 6320 and 6330, a taxpayer may waive this requirement.
15
   The IRS is required by statute to issue a form Letter 3193 – Notice of Determination Concerning Collection
Action(s) Under Section 6320 and/or 6330 at the conclusion of a CDP hearing.
16
   A Decision Letter is issued to a taxpayer at the conclusion of an EH. The IRS issues a form Letter 3210 –
Decision Letter Concerning Equivalent Hearing Under Section 6320 and/or 6330 of the Internal Revenue Code at
the conclusion of an EH hearing which serves the same purpose as the CDP Notice of Determination.
                                                                                                       Page 6
                               Additional Improvements Are Needed in the
                            Office of Appeals Collection Due Process Program
                                to Ensure Statutory Requirements Are Met



                           Figure 1: Impartiality Not Documented

                  *************************1********************
                  *************************1********************
                  *************************1********************
                  *************************1*********************
                  *************************1**********************

                  Total Impartiality Errors on CDP and EH Cases                        9
                Source: Treasury Inspector General for Tax Administration Review of CDP
                and EH cases.

Specifically, 3 (4.29 percent) of the 70 CDP cases did not include the impartiality statement in
the Case Activity Record. In addition, 6 (8.57 percent) of the 70 EH cases did not have an
impartiality statement in either the Case Activity Record ******1***** or the Decision Letter
***1****. Based on the cases we reviewed, we estimated that 1,598 of the 37,289 CDP cases and
827 of the 9,653 EH cases closed in FY 2010 did not contain the required impartiality statement.
The errors we identified represent a slight increase from our prior review, which found eight
cases without an impartiality statement.17
In some instances, a hearing officer may start working a case but, due to the complexity of the
case or inventory considerations, management may transfer the case to another hearing officer.
All hearing officers are required to document their impartiality even if they do not work the
taxpayer’s case to completion. This situation impacted four cases in our samples because both
hearing officers assigned to the cases did not document his or her impartiality.
The issue of impartiality has been brought to the attention of Appeals management in prior
reports.18 In response to one of our previous recommendations, Appeals implemented a
computer programming enhancement to their Appeals Centralized Database System (ACDS)19 on
April 24, 2008. When a hearing officer makes his or her first entry on a new case, a pop-up box
asks whether the hearing officer had any prior involvement with the taxpayer for the type of tax
and tax years associated with the CDP. After the hearing officer responds, an impartiality
statement is systemically entered into the Case Activity Record. The pop-up box is also
activated if the taxpayer’s case is reassigned to a new hearing officer.


17
   The Office of Appeals Has Improved Compliance Within Its Collection Due Process Program; However, Some
Improvement Is Still Needed (Reference Number 2010-10-075, dated July 15, 2010).
18
   The Office of Appeals Continues to Show Improvement in Processing Collection Due Process Cases (Reference
Number 2008-10-160, dated September 12, 2008), and The Office of Appeals Continues to Improve Compliance
With Collection Due Process Requirements (Reference Number 2009-10-126, dated September 17, 2009).
19
   The ACDS is a computerized case control system used to control and track cases throughout the appeals process.
                                                                                                          Page 7
                              Additional Improvements Are Needed in the
                           Office of Appeals Collection Due Process Program
                               to Ensure Statutory Requirements Are Met



We previously recommended that Appeals ensure the ACDS programming was working
properly.20 In response, Appeals management submitted a request to evaluate the effectiveness
of the ACDS systemic prompt. In January 2011, Appeals advised us the ACDS program code
was recently tested and reported to be free of programming errors. However, management stated
it is possible for hearing officers to overwrite the impartiality statement when they make new
entries within the same Case Activity Record. This is an indication that the new systemic control
may not always be working as intended.
Appeals posted a memo on its web site advising employees to be careful to not overwrite the
impartiality statement on the Case Activity Record; however, hearing officers may not be aware
this can happen because the ACDS does not issue a warning when the impartiality statement is
deleted or overwritten.
We believe it is important for each hearing officer to ensure the impartiality statement is not
overwritten or unintentionally deleted on the Case Activity Record. If the impartiality statement
is not documented in the Case Activity Record, there is a risk the hearing officer had prior
involvement in the taxpayer’s case and a potential lack of independence. This could impact the
taxpayer’s right to a fair and impartial hearing.

Recommendation
Recommendation 4: The Chief, Appeals, should determine whether the impartiality
statement generated by the systemic prompt should be moved to a separate field so it cannot be
overwritten or if a warning message should be generated when hearing officers overwrite the
impartiality statement.
        Management’s Response: Management agreed with this recommendation and stated
        they plan to request a computer enhancement that would result in a “read only” case
        activity record affirming each hearing officer’s impartiality.

Hearing Officers Did Not Always Document Verification That All
Applicable Laws and Administrative Procedures Were Followed
By law, hearing officers are required to verify that the IRS followed the applicable laws or
administrative procedures with respect to the proposed lien or levy.21 The Appeals IRM requires
that the verification statement be documented in the Determination and Decision Letters issued
to taxpayers as well as the Case Activity Records. If a hearing officer does not document the
Case Activity Record with a statement of his or her verification, there is a risk that the IRS has


20
   The Office of Appeals Has Improved Compliance Within Its Collection Due Process Program; However, Some
Improvement Is Still Needed (Reference Number 2010-10-075, dated July 15, 2010).
21
   U.S.C. § 6330(c)(1) 2010.
                                                                                                     Page 8
                            Additional Improvements Are Needed in the
                         Office of Appeals Collection Due Process Program
                             to Ensure Statutory Requirements Are Met



not met all the requirements of applicable laws or administrative procedures with respect to the
proposed levy or lien. However, a lack of this documentation in the Appeals case file does not
necessarily mean the IRS Collection function failed to meet the legal and administrative
requirements for liens and levies.
In this review, we found that hearing officers were in compliance with the law by documenting
the verification statement in the Determination and Decision Letters issued to taxpayers.
However, we identified 24 CDP and EH cases without a verification statement in the Case
Activity Records. Specifically, 12 (17.14 percent) of the 70 CDP cases and 12 (17.14 percent) of
the 70 EH cases did not have adequate documentation to support that all applicable procedures
were followed. As a result, we estimated that 6,392 of the 37,289 CDP cases and 1,655 of the
9,653 EH cases closed in FY 2010 did not contain this information in the Case Activity Records.
Unlike the impartiality statement requirement, if more than one hearing officer works the
taxpayer’s appeal, it is not a requirement that each hearing officer document their verification in
the Case Activity Record. However, in 3 of the 24 cases with errors, more than one hearing
officer was assigned to the taxpayer’s case and none of the hearing officers in these 3 cases
documented their verification in the Case Activity Record.
Since October 2007, Appeals management has required that hearing officers document their
verification in the Case Activity Record during their initial analysis of the taxpayer’s case.
However, Appeals management stated this guideline was not always followed because some
hearing officers may have believed it was sufficient if the Determination or Decision letters
contained the required verification that applicable laws and procedures were followed. As a
result, they did not always document the Case Activity Records as required.
Appeals management informed us they are conducting a study to determine whether they should
revise their IRM to no longer require hearing officers to document in the Case Activity Record
the steps taken to verify all legal and administrative procedures were followed. They indicated
that it may not be an effective use of time and resources to document the Case Activity Record
because a verification statement is required to be included in the Determination and Decision
Letters. However, we believe Appeals should ensure that adequate evidence is maintained in the
case file to support the hearing officer’s conclusion that the IRS followed the applicable laws or
administrative procedures with respect to the proposed levy or lien.

Recommendation
Recommendation 5: The Chief, Appeals, should evaluate what documentation should be
maintained in the Case Activity Records to support hearing officers’ conclusions that applicable
laws and procedures were followed by the IRS.




                                                                                             Page 9
                   Additional Improvements Are Needed in the
                Office of Appeals Collection Due Process Program
                    to Ensure Statutory Requirements Are Met



Management’s Response: Management agreed with this recommendation and stated
that they plan to remove the requirement to document the verification of the legal and
administrative procedures in the case activity record.




                                                                              Page 10
                                  Additional Improvements Are Needed in the
                               Office of Appeals Collection Due Process Program
                                   to Ensure Statutory Requirements Are Met



                                                                                                   Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with
26 U.S.C. §§ 6320 (b) and (c) and 6330 (b) and (c) when taxpayers exercised their right to appeal
the filing of a Notice of Federal Tax Lien or issuance of a Notice of Intent to Levy. To
accomplish this objective, we:
I.         Determined whether any new procedures or processes have been developed since the
           prior Treasury Inspector General for Tax Administration statutory review.
II         Determined whether Appeals CDP and EH case files contained required documentation
           for a hearing and if the hearing officers followed requirements of 26 U.S.C. §§ 6320 and
           6330.
           A. Obtained an extract of the ACDS1 file maintained at the Treasury Inspector General
              for Tax Administration Data Center Warehouse of 37,289 CDP and 9,653 EH cases
              closed during FY 2010 (October 1, 2009, through September 30, 2010). We
              validated the extract by reviewing the appropriateness of data within the fields
              requested and compared population totals to information obtained from Appeals
              officials.
           B. Selected and secured CDP and EH cases for our two samples. We selected statistical
              attribute samples of 70 CDP cases (population of 37,289) and 70 EH cases
              (population of 9,653). We used a confidence level of 90 percent, a precision level of
              ±6 percent, and an expected error rate of 10 percent to determine these sample sizes.
              We selected statistical samples because we wanted to project our results to the entire
              population of CDP and EH cases closed during FY 2010.
           C. Determined whether the 70 CDP and 70 EH sampled case files contained adequate
              documentation and, if applicable, determined the cause of and confirmed any
              potential exceptions with Appeals officials. In addition, we projected the number of
              exceptions within each population.
III.       Determined whether Appeals CDP and EH cases were classified correctly using the CDP
           and the EH samples selected in Step II.B.




1
    The ACDS is a computerized case control system used to control and track cases throughout the appeals process.
                                                                                                           Page 11
                                Additional Improvements Are Needed in the
                             Office of Appeals Collection Due Process Program
                                 to Ensure Statutory Requirements Are Met



IV.      Determined whether Appeals was in compliance with 26 U.S.C. §§ 6320(b) and (c) and
         6330(b) and (c) using the CDP and the EH samples selected in Step II.B. by reviewing
         case file information to determine whether Appeals documented the following:
         A. The taxpayer was provided with an impartial hearing officer or waived this
            requirement [26 U.S.C. §§ 6320(b)(3) and 6330(b)(3)].
         B. The hearing officer obtained verification that the requirements of all applicable laws
            or administrative procedures were met [26 U.S.C. §§ 6330(I)(1)].
V.       Determined whether the CSEDs2 for CDP and EH accounts were accurate on the
         Integrated Data Retrieval System. 3
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies and procedures for classifying
CDP and EH cases and ensuring hearing officers meet the criteria specified in 26 U.S.C. §§ 6320
and 6330. We evaluated these controls by reviewing a sample of CDP and EH cases, reviewing
applicable computer codes on the Integrated Data Retrieval System for CDP and EH cases, and
reviewing potential exception cases with Appeals officials.




2
  The CSED is the date the statute expires for collection of tax, penalty, or interest. The CSED is 10 years from the
assessment date of the posting of the original return.
3
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 12
                         Additional Improvements Are Needed in the
                      Office of Appeals Collection Due Process Program
                          to Ensure Statutory Requirements Are Met



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Janice M. Pryor, Audit Manager
Mark A. Judson, Lead Auditor
Chinita M. Coates, Auditor
Melinda H. Dowdy, Auditor




                                                                                  Page 13
                         Additional Improvements Are Needed in the
                      Office of Appeals Collection Due Process Program
                          to Ensure Statutory Requirements Are Met



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Appeals AP:TP:SS




                                                                         Page 14
                                  Additional Improvements Are Needed in the
                               Office of Appeals Collection Due Process Program
                                   to Ensure Statutory Requirements Are Met



                                                                                                Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Taxpayer Rights and Entitlements – Potential; 533 CDP case files contain hearing requests
      that were received late and were not properly classified as an EH case (see page 3).

Methodology Used to Measure the Reported Benefit:
For the CDP sample, we used a computer extract from the ACDS1 and identified a population of
37,289 CDP cases that were closed in FY 2010. ********************1*****************
*************************************1**************************************
*****1*******. Using a 90 percent confidence level and a precision rate of ±2.35 percent, we
estimate that 1.43 percent of the cases in the population (533 CDP case files) may have
contained misclassified CDP taxpayer requests. When CDP cases are misclassified, taxpayers
receive hearing rights to which they are not legally entitled. Using the Exact Binomial Method,
we are 90 percent confident that the actual exception rate is between 0.07 percent and
6.60 percent.

Type and Value of Outcome Measure:
•     Taxpayer Rights and Entitlements – Potential; 276 EH case files contain hearing requests that
      were received timely and were not properly classified as a CDP case (see page 3).

Methodology Used to Measure the Reported Benefit:
For the EH sample, we used a computer extract from the ACDS and identified 9,653 EH cases
that were closed in FY 2010. **************************1************************
***********************************1***************************************.
Using a 90 percent confidence level and a precision rate of ±3.29 percent, we estimate that
2.86 percent of the cases in the population (276 EH case files) may have contained misclassified
taxpayer requests. When EH cases are misclassified, taxpayers do not receive hearing rights to



1
    The ACDS is a computerized case control system used to control and track cases throughout the appeals process.
                                                                                                           Page 15
                                Additional Improvements Are Needed in the
                             Office of Appeals Collection Due Process Program
                                 to Ensure Statutory Requirements Are Met



which they are legally entitled. Using the Exact Binomial Method, we are 90 percent confident
that the actual exception rate is between 0.51 percent and 8.80 percent.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 138 EH case files contain hearing requests that
    were received more than 1 year after the Notice of Intent to Levy and the taxpayers were
    inappropriately provided an EH (see page 3).

Methodology Used to Measure the Reported Benefit:
For the EH sample, we used a computer extract from the ACDS and identified 9,653 EH cases
that were closed in FY 2010. ******************************1**********************
***********************************************1*****************************.
Using a 90 percent confidence level and a precision rate of ±2.34 percent, we estimate that
1.43 percent of the cases in the population (138 EH case files) may have contained misclassified
taxpayer requests. We estimate that Appeals may have improperly provided an EH hearing to
138 taxpayers. Using the Exact Binomial Method, we are 90 percent confident that the actual
exception rate is between 0.07 percent and 6.60 percent.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 4,794 CDP case files in which taxpayers had
    CSEDs2 that were inappropriately extended longer than the length of the hearing (see
    page 5).

Methodology Used to Measure the Reported Benefit:
For the CDP sample, we used a computer extract from the ACDS and identified a population of
37,289 CDP cases that were closed in FY 2010. We reviewed a statistical attribute sample of
70 CDP cases and found 9 of these CDP case files contained instances in which the taxpayer’s
CSED had been suspended longer than the length of the CDP hearing. Using a 90 percent
confidence level and a precision rate of ±6.62 percent, we estimate that 12.86 percent of the
cases in the population (4,794 CDP case files) had an incorrect CSED posted to taxpayer records.
A CSED extended in error to a taxpayer account provides the IRS more time than allowed to
collect the delinquent taxes. Using the Normal Approximation Method, we are 90 percent
confident that the actual exception rate is between 6.24 percent and 19.48 percent.




2
 The CSED is the date the statute expires for collection of tax, penalty, or interest. The CSED is 10 years from the
assessment date of the posting of the original return.
                                                                                                            Page 16
                            Additional Improvements Are Needed in the
                         Office of Appeals Collection Due Process Program
                             to Ensure Statutory Requirements Are Met



Type and Value of Outcome Measure:
•   Increased Revenue – Potential; 3,196 CDP case files in which taxpayers had CSEDs that
    were not correctly extended for the length of the CDP hearing (see page 5).

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we identified a population of 37,289 CDP cases that
were closed in FY 2010. We reviewed a statistical attribute sample of 70 CDP cases and found
that 6 of these CDP case files contained instances in which the taxpayer’s CSED was not
correctly extended for the length of the CDP hearing. Using a 90 percent confidence level and a
precision rate of ±5.54 percent, we estimate that 8.57 percent of the cases in the population
(3,196 CDP case files) had an incorrect CSED posted to taxpayer records. A CSED shortened in
error to a taxpayer account provides the IRS less time than allowed to collect the delinquent
taxes, which may result in the loss of revenue for the IRS. Using the Normal Approximation
Method, we are 90 percent confident that the actual exception rate is between 3.03 percent and
14.11 percent.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 1,598 CDP cases files did not contain the
    impartiality statement by the hearing officer (see page 6).
•   Taxpayer Rights and Entitlements – Potential; 827 EH case files did not contain the
    impartiality statement by the hearing officer (see page 6).

Methodology Used to Measure the Reported Benefit:
For the CDP sample, we used a computer extract from the ACDS and identified a population of
37,289 CDP cases that were closed in FY 2010. We reviewed a statistical attribute sample of
70 CDP cases and found that 3 of these CDP case files did not contain the required impartiality
statement by the hearing officer. Using a 90 percent confidence level and a precision rate of
±4.01 percent, we estimate that 4.29 percent of the cases in the population (1,598 CDP case files)
did not contain the required impartiality statement. If a hearing officer does not document the
case file with a statement of his or her impartiality, taxpayer rights may be affected because there
is a risk of prior involvement and a potential lack of independence. Using the Normal
Approximation Method, we are 90 percent confident that the actual exception rate is between
0.28 percent and 8.29 percent.
For the EH sample, we used a computer extract from the ACDS and identified 9,653 EH cases
that were closed in FY 2010. We reviewed a statistical attribute sample of 70 EH cases and
found that 6 of these EH case files did not contain the required impartiality statement by the
hearing officer. Using a 90 percent confidence level and a precision rate of ±5.52 percent, we
estimate that 8.57 percent of the cases in the population (827 EH case files) did not contain the

                                                                                            Page 17
                           Additional Improvements Are Needed in the
                        Office of Appeals Collection Due Process Program
                            to Ensure Statutory Requirements Are Met



required impartiality statement. If a hearing officer does not document the case file with a
statement of his or her impartiality, taxpayer rights may be affected because there is a risk of
prior involvement and a potential lack of independence. Using the Normal Approximation
Method, we are 90 percent confident that the actual exception rate is between 3.05 percent and
14.09 percent.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 6,392 CDP cases files did not contain the
    verification statement by the hearing officer (see page 8).
•   Taxpayer Rights and Entitlements – Potential; 1,655 EH case files did not contain the
    verification statement by the hearing officer (see page 8).

Methodology Used to Measure the Reported Benefit:
For the CDP sample, we used a computer extract from the ACDS and identified a population of
37,289 CDP cases that were closed in FY 2010. We reviewed a statistical attribute sample of
70 CDP cases and found that 12 of these CDP case files did not contain the required verification
statement by the hearing officer. Using a 90 percent confidence level and a precision rate of
±7.46 percent, we estimate that 17.14 percent of the cases in the population (6,392 CDP case
files) did not contain the required verification statement. If a hearing officer does not document
the case file with a statement of his or her verification, taxpayer rights may be affected because
there is a potential risk that all applicable laws, regulations, and or administrative procedures
have not be followed. Using the Normal Approximation Method, we are 90 percent confident
that the actual exception rate is between 9.69 percent and 24.60 percent.
For the EH sample, we used a computer extract from the ACDS and identified 9,653 EH cases
that were closed in FY 2010. We reviewed a statistical attribute sample of 70 EH cases and
found that 12 of these EH case files did not contain the required verification statement by the
hearing officer. Using a 90 percent confidence level and a precision rate of ±7.44 percent, we
estimate that 17.14 percent of the cases in the population (1,655 EH case files) did not contain
the required verification statement. If a hearing officer does not document the case file with a
statement of his or her impartiality, taxpayer rights may be affected because there is a potential
risk that all applicable laws, regulations, and or administrative procedures have not be followed.
Using the Normal Approximation Method, we are 90 percent confident that the actual exception
rate is between 9.71 percent and 24.58 percent.




                                                                                            Page 18
                                 Additional Improvements Are Needed in the
                              Office of Appeals Collection Due Process Program
                                  to Ensure Statutory Requirements Are Met



                                                                                                     Appendix V

                    Collection Due Process Procedures

The IRS is required to notify taxpayers in writing that a lien has been filed or when it intends to
levy. A taxpayer is allowed to appeal the filing of the lien or proposed levy action through the
CDP by filing a hearing request. This hearing request must be received within 30 calendar days
plus 5 business days of the filing of the lien or within 30 calendar days of the date of the Notice
of Intent to Levy. If a taxpayer’s hearing request is submitted on time, the IRS will suspend all
collection efforts and the Office of Appeals (Appeals) will provide the taxpayer a CDP hearing.
If a taxpayer’s hearing request is not submitted timely, Appeals has discretionary authority to
provide the taxpayer an EH and consider the same issues as in a CDP hearing; however, the IRS
is not required to suspend collection action and the taxpayer does not have the right to a judicial
review.
Taxpayers are entitled to one hearing per tax period for which a lien or Notice of Intent to Levy
has been issued. The hearing is conducted by an Appeals officer or Settlement officer (hearing
officer) who has had no prior involvement with the unpaid tax. During the hearing, the hearing
officer must verify whether the requirements of all applicable laws or administrative procedures
related to the lien or Notice of Intent to Levy were met. The hearing officer must also address
any issues the taxpayer may raise relevant to the unpaid tax, the filing of the lien, or the proposed
levy, such as whether the taxpayer is an innocent spouse;1 determine if collection actions were
appropriate; and decide if other collection alternatives would facilitate the payment of the tax.2
The hearing officer must determine whether any proposed collection action balances the need for
efficient collection of taxes with the taxpayer’s legitimate concerns, such as financial hardship.
The taxpayer may not raise an issue that was considered at a prior administrative or judicial
hearing if the taxpayer participated meaningfully in the prior proceeding.
At the conclusion of a hearing, Appeals issues the taxpayer a Determination Letter for a CDP
hearing or a Decision Letter for an EH. These letters describe the hearing officer’s findings,
agreements reached with the taxpayer, any relief provided to the taxpayer, and any actions the
taxpayer and the IRS are required to take. If the taxpayer disagrees with Appeals’ decision




1
  A taxpayer can be relieved of responsibility for paying tax, interest, and penalties if his or her spouse (or former
spouse) improperly reported items or omitted items on their tax return.
2
  Collection alternatives are available to taxpayers during their Appeals hearing request. These may include the
posting of a bond, the substitution of other assets, an installment agreement, or an offer in compromise.
                                                                                                               Page 19
                               Additional Improvements Are Needed in the
                            Office of Appeals Collection Due Process Program
                                to Ensure Statutory Requirements Are Met



during a CDP, he or she may petition the courts. However, taxpayers who agree with Appeals’
decision may waive their right to a judicial review.3
After Appeals has made a determination on a case, if the taxpayer has a change in circumstances
that affects the Appeals determination or if the Collection function does not carry out the
determination, the taxpayer has the right to return to Appeals. The Appeals office that made the
original determination generally retains jurisdiction over the case.




3
 Appeals will issue these taxpayers a Summary Notice of Determination. Taxpayers also agree to waive the
suspension of collection activity.
                                                                                                      Page 20
                               Additional Improvements Are Needed in the
                            Office of Appeals Collection Due Process Program
                                to Ensure Statutory Requirements Are Met



                                                                                            Appendix VI

        Management’s Response to the Draft Report 1




1
 Where used in various sections of management’s response, TC stands for “transaction code.” Transaction codes
are three digit codes used to identify actions taken on a taxpayer’s account.
                                                                                                      Page 21
   Additional Improvements Are Needed in the
Office of Appeals Collection Due Process Program
    to Ensure Statutory Requirements Are Met




                                                   Page 22
   Additional Improvements Are Needed in the
Office of Appeals Collection Due Process Program
    to Ensure Statutory Requirements Are Met




                                                   Page 23
   Additional Improvements Are Needed in the
Office of Appeals Collection Due Process Program
    to Ensure Statutory Requirements Are Met




                                                   Page 24
